HHS/OIG-Audit--"Review of Retroactive Foster Care Title IV-E Claims Submitted by the Missouri Department of Social Services, (A-07-92-00601)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Retroactive Foster Care Title IV-E Claims Submitted by the
Missouri Department of Social Services," (A-07-92-00601)
March 8, 1994
Complete Text of Report is available in PDF format
(1.61 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of the retroactive title
IV-E foster care claims reimbursed to the Missouri Department of Social Services
(DSS). The DSS filed five revised claims with the Administration for Children
and Families (ACF) for costs of the title IV-E Foster Care program. The claims
for Federal reimbursements totaled $17,861,646 and covered the period January
1, 1989 through December 31, 1991. We determined that DSS's records did not
support their revised claims for Federal reimbursement of $17,861,646. Notwithstanding
the support issue, we determined that $5,693,408 may be unallowable because
the claims were filed after the regulartory deadline. We determined that another
$4,362,197 was unallowable because the revised claims were not based on the
approved cost allocation plan. Internal controls at DSS were inadequate to ensure
that the claims were properly documented and eligible for title IV-E reimbursement.
We are recommending that DSS withdraw unsupported claims of $17,861,646. We
are also making certain procedural recommendations.